Office of Material Loss Reviews
Report No. MLR-10-023


Material Loss Review of First Coweta Bank,
Newnan, Georgia




                                  March 2010
                                       Executive Summary
                                       Material Loss Review of First Coweta Bank,
                                       Newnan, Georgia

                                                                                         Report No. MLR-10-023
                                                                                                    March 2010

Why We Did The Audit
On August 21, 2009 the Georgia Department of Banking and Finance (DBF) closed First Coweta Bank (First
Coweta) and named the FDIC as receiver. On September 10, 2009, the FDIC notified the Office of Inspector
General (OIG) that First Coweta’s total assets at closing were $164 million and that the estimated loss to the
Deposit Insurance Fund (DIF) was $47.7 million. As of March 1, 2010, the estimated loss to the DIF had
increased to $50.1 million. As required by section 38(k) of the Federal Deposit Insurance (FDI) Act, the OIG
conducted a material loss review.

The audit objectives were to (1) determine the causes of First Coweta’s failure and the resulting material loss
to the DIF and (2) evaluate the FDIC’s supervision of First Coweta, including implementation of the Prompt
Corrective Action (PCA) provisions of section 38.


Background
First Coweta was a state-chartered nonmember bank established by the DBF on July 12, 2004, and insured by
the FDIC the same day. The full-service community bank was headquartered in Newnan, Georgia and
specialized in commercial real estate (CRE), including residential acquisition, development, and construction
(ADC) loans. First Coweta was located in the southwest quadrant of the Atlanta metropolitan area which, at
that time, was seen as a good area for residential and commercial development. In addition to its main office,
the bank had three branch offices, one in Newnan, and two in adjoining counties. The bank had no holding
company or affiliates. The bank’s stock was widely held, with directors collectively controlling 22 percent.


Audit Results
Causes of Failure and Material Loss

First Coweta failed because its Board and management pursued a strategy focused on ADC lending and failed
to adequately manage the risks associated with the resulting ADC concentrations. Supervisory guidance
emphasizes that strong risk management practices and appropriate levels of capital are essential elements of a
sound CRE lending program, particularly when the institution has a concentration. The bank focused on
residential ADC lending in and around Atlanta with its growth funded, in part, by higher-priced certificates of
deposit, including brokered deposits. The precipitous economic decline in the Atlanta metropolitan real estate
market that began in 2007 led to loan losses that quickly eroded the bank’s capital. Weaknesses in First
Coweta’s loan underwriting and credit administration practices contributed to the rapid decline in bank’s
financial condition. The bank hired a new chief loan officer in 2008 but this action and other Board efforts to
rehabilitate the bank in late 2008 and during 2009 came too late and its condition continued to deteriorate in
2009. DBF closed First Coweta because of its core unprofitability, inability to raise sufficient capital to
support its operations, and strained liquidity position.

The FDIC’s Supervision of First Coweta

Our review focused on FDIC and DBF supervisory oversight of First Coweta between 2005 and 2009. The
first three examinations, conducted during First Coweta’s de novo period, identified ADC concentrations and
the need for the bank to enhance various underwriting and credit administration practices. During its de novo
period, examiners generally concluded that First Coweta’s overall financial condition was sound and
management’s performance and oversight was satisfactory. The FDIC’s offsite monitoring program was used



                                   To view the full report, go to www.fdicig.gov
                                       Material Loss Review of First Coweta Bank,
    Executive Summary                  Newnan, Georgia

                                                                                         Report No. MLR-10-023
                                                                                                    March 2010

to monitor the bank’s condition between the 2007 and 2008 examinations and prompted a joint visitation in
late 2008 and the acceleration of the DBF’s on-site examination. In 2008, examiners found the overall
condition of the bank had significantly deteriorated because of a slowing economy and poor Board and
management oversight. Formal supervisory action was taken in 2009; however, by the time that action became
effective, the financial condition of the bank had become critically deficient.

Although the FDIC and the DBF closely monitored First Coweta, in retrospect, it may have been prudent for
the FDIC to downgrade the management component and/or pursue supervisory action in 2007 considering the
following risks that were apparent at the institution:

•   significant growth during the de novo period;
•   lack of adherence to business plan projections;
•   high concentrations of ADC loans;
•   noted weaknesses in underwriting and credit administration practices, including contraventions and
    violations of regulatory guidance; and
•   reliance on non-core funding.

Such an approach may have (1) been more effective in bringing about necessary risk mitigation by requiring
more formal Board and management commitments to corrective actions and (2) resulted in increased
supervisory oversight at a critical point in time. We recognize that rating determinations are a matter of
judgment. Further, while it was possible for examiners to downgrade the management component, it may have
been difficult for them to support a lower rating in 2007 based on weak practices because the bank’s earnings
and capital were considered to be satisfactory at that time.

In recognition of the risk factors present in First Coweta and in similarly troubled or failed institutions, the
FDIC established broad supervisory expectations in 2006 and again in 2008 with regard to managing risk
associated with CRE and ADC concentrations. In 2008 and 2009, the FDIC issued guidance related to
liquidity management and use of volatile or special funding sources by financial institutions that are in a
weakened condition, respectively. Additionally, in 2009, the FDIC extended the de novo period in recognition
that unseasoned institutions may warrant stronger supervisory attention. The FDIC also recently established
procedures to better communicate and follow up on risks and deficiencies identified during examinations.

With respect to PCA, based on the supervisory actions taken, the FDIC properly implemented applicable PCA
provisions of section 38 in a timely manner. First Coweta was unsuccessful in raising needed capital and the
bank was subsequently closed on August 21, 2009.

Management Response

After we issued our draft report, management provided additional information for our consideration, and we
revised our report to reflect this information as appropriate. On March 5, 2010, the Director, Division of
Supervision and Consumer Protection (DSC), provided a written response to the draft report. DSC reiterated
the OIG’s conclusions regarding the cause of First Coweta’s failure. With regard to our assessment of the
FDIC’s supervision of First Coweta, DSC cited supervisory action taken in 2007 and 2008, discussed in our
report, to address the bank’s heightened risk profile and deteriorating financial condition due to its high
concentrations in ADC lending. Further, DSC’s response recognizes that strong supervisory attention is
necessary for institutions, like First Coweta, with high ADC/CRE concentrations and volatile funding sources
and, as also discussed in our report, has issued updated guidance reminding examiners to take appropriate
action when those risks are imprudently managed.




                                   To view the full report, go to www.fdicig.gov
                                Contents
                                                                          Page
Background                                                                  2

Causes of Failure and Material Loss                                         2
 Concentrations in ADC Loans                                                3
 Risk Management Practices                                                  4
 Reliance on Non-Core Funding                                               7

The FDIC’s Supervision of First Coweta                                      8
 Supervisory History                                                        9
 Supervisory Concerns and Response Related to ADC Concentrations and       11
   Risk Management Practices
 Supervisory Concerns and Response Related to ALLL                         13
 Supervisory Concerns and Response Related to Non-Core Funding             14
 Implementation of PCA                                                     14

Corporation Comments                                                       15

Appendices 
 1. Objectives, Scope, and Methodology                                     16
 2. Glossary of Terms                                                      18
 3. Acronyms                                                               21
 4. Corporation Comments                                                   22

Tables
 1. Financial Information for First Coweta, 2005 to 2009                    2
 2. First Coweta’s ADC Concentrations Compared to Peer Group                3
 3. Examinations and Visitations of First Coweta, 2005 to 2008             10
 4. First Coweta’s Offsite Monitoring, September 2007 to September 2008    11
 5. First Coweta’s Adversely Classified Assets and ALLL, 2005 to 2008      14

Figure
  First Coweta’s Net Non-Core Funding Dependence Ratio                      8
    Federal Deposit Insurance Corporation                                             Office of Material Loss Review
    3501 Fairfax Drive, Arlington, VA 22226                                               Office of Inspector General


DATE:                                         March 10, 2010

MEMORANDUM TO:                                Sandra L. Thompson, Director
                                              Division of Supervision and Consumer Protection

                                              /Signed/
FROM:                                         Stephen M. Beard
                                              Assistant Inspector General for Material Loss Reviews

SUBJECT:                                      Material Loss Review of First Coweta Bank, Newnan,
                                              Georgia (Report No. MLR-10-023)


As required by section 38(k) of the Federal Deposit Insurance (FDI) Act, the FDIC Office
of Inspector General (OIG) conducted a material loss1 review of the failure of First
Coweta Bank (First Coweta), Newnan, Georgia. The Georgia Department of Banking and
Finance (DBF) closed First Coweta on August 21, 2009 and named the FDIC as receiver.
On September 10, 2009, the FDIC notified the OIG that First Coweta’s total assets at
closing were $164 million and that the estimated loss to the Deposit Insurance Fund (DIF)
was $47.7 million. As of March 1, 2010, the estimated loss to the DIF had increased to
$50.1 million.

When the DIF incurs a material loss with respect to an insured depository institution for
which the FDIC is appointed receiver, the FDI Act states that the Inspector General of the
appropriate federal banking agency shall make a written report to that agency. The report
is to consist of a review of the agency’s supervision of the institution, including the
agency’s implementation of FDI Act section 38, Prompt Corrective Action (PCA); a
determination as to why the institution’s problems resulted in a material loss to the DIF;
and recommendations to prevent future losses.

The objectives of this material loss review were to (1) determine the causes of First
Coweta’s failure and the resulting material loss to the DIF and (2) evaluate the FDIC’s
supervision2 of First Coweta, including the FDIC’s implementation of the PCA provisions
of section 38 of the FDI Act. This report presents our analysis of First Coweta’s failure
and the FDIC’s efforts to ensure that First Coweta’s Board of Directors (Board) and
management operated the institution in a safe and sound manner.


1
  As defined by section 38(k)(2)(B) of the FDI Act, a loss is material if it exceeds the greater of $25 million
or 2 percent of an institution’s total assets at the time the FDIC was appointed receiver.
2
  The FDIC’s supervision program promotes the safety and soundness of FDIC-supervised institutions,
protects consumers’ rights, and promotes community investment initiatives by FDIC-supervised insured
depository institutions. The FDIC’s Division of Supervision and Consumer Protection (DSC) (1) performs
examinations of FDIC-supervised institutions to assess their overall financial condition, management
policies and practices (including internal control systems), and compliance with applicable laws and
regulations and (2) issues related guidance to institutions and examiners.
The report does not contain formal recommendations. Instead, as major causes, trends,
and common characteristics of financial institution failures are identified in our material
loss reviews, we will communicate those to management for its consideration. As
resources allow, we may also conduct more in-depth reviews of specific aspects of DSC’s
supervision program and make recommendations, as warranted. Appendix 1 contains
details on our objectives, scope, and methodology. Appendix 2 contains a glossary of key
terms and Appendix 3 contains a list of acronyms. Appendix 4 contains the Corporation’s
comments on this report.


Background
First Coweta was a state-chartered nonmember bank established by the DBF on
July 12, 2004,3 and insured by the FDIC the same day. The full-service community bank
was headquartered in Newnan, Georgia and specialized in commercial real estate (CRE),
including residential acquisition, development, and construction (ADC) loans. First
Coweta was located in the southwest quadrant of the Atlanta metropolitan area which, at
that time, was seen as a good area for residential and commercial development. In
addition to its main office, the bank had three branch offices, one in Newnan, and two in
adjoining counties. The bank had no holding company or affiliates. The bank’s stock was
widely held, with directors collectively controlling 22 percent. Table 1 provides details on
First Coweta’s financial condition as of June 30, 2009 and for the 4 preceding calendar
years.

Table 1: Financial Information for First Coweta, 2005 to 2009
000)Financial Measure            Jun-2009        Dec-2008        Dec-2007        Dec-2006       Dec-2005
Total Assets ($000s)              163,755         166,123        179,439         120,943         84,509
Total Loans ($000s)               116,018         129,848        148,842          97,885         63,969
Total Deposits ($000s)            154,903         153,169        151,433         101,442         71,288
Brokered Deposits ($000s)         16,769          28,726          29,656          20,981          9,249
FHLB Borrowings ($000s)            5,000           5,000          12,000          5,000             0
Net Income ($000s)                (4,007)         (7,956)          671             713             339
Source: Uniform Bank Performance Reports (UBPR) for First Coweta.



Causes of Failure and Material Loss

First Coweta failed because its Board and management pursued a strategy focused on
ADC lending and failed to adequately manage the risks associated with the resulting ADC
concentrations. Supervisory guidance emphasizes that strong risk management practices
and appropriate levels of capital are essential elements of a sound CRE lending program,
particularly when the institution has a concentration. The bank focused on residential

3
  Until 2009, the FDIC defined a de novo institution as one within its first 3 years of operation. First
Coweta’s de novo period ended July 2007. It was subsequently considered a young institution (defined as
institutions in their 4th through 9th year of operation). On August 28, 2009, the FDIC extended the de novo
period from 3 to 7 years in Financial Institution Letter (FIL) 50-2009, entitled, Enhanced Supervisory
Procedures for Newly Insured FDIC-Supervised Depository Institutions.


                                                      2
ADC lending in and around Atlanta with its growth funded, in part, by higher-priced
certificates of deposit, including brokered deposits. The precipitous economic decline in
the Atlanta metropolitan real estate market that began in 2007 led to loan losses that
quickly eroded the bank’s capital. Weaknesses in First Coweta’s loan underwriting and
credit administration practices contributed to the rapid decline in the bank’s financial
condition. The bank hired a new chief loan officer in 2008, but this action and other
Board efforts to rehabilitate the bank in late 2008 and during 2009 came too late and its
condition continued to deteriorate in 2009. DBF closed First Coweta because of its core
unprofitability, inability to raise sufficient capital to support its operations, and strained
liquidity position.

Concentrations in ADC Loans

First Coweta grew its assets from $85 million to $179 million from year-end 2005 to year-
end 2007. First Coweta’s growth, centered in ADC loans, comprised almost
40 percent of the bank’s average gross loans between 2005 and 2009. In addition, ADC
loans, as a percentage of total capital, increased from 191 percent as of December 31,
2005 to approximately 559 percent as of December 31, 2008,4 nearly 4 times greater than
the bank’s peer group.5 Table 2 summarizes First Coweta’s ADC concentrations in
comparison to its peer group.

Table 2: First Coweta’s ADC Concentrations Compared to Peer Group
                                      ADC Loans as a                                ADC Loans as a
                               Percentage of Total Capital                Percentage of Average Gross Loans
   Period Ending            First Coweta       Peer Group                   First Coweta        Peer Group
December 31, 2005               191.26             73.28                        39.04              16.95
December 31, 2006               264.62            119.88                        40.31              20.75
December 31, 2007               360.93            139.80                        39.34              21.67
December 31, 2008               558.80            141.06                        40.92              20.01
June 30, 2009                   922.13             84.98                        40.15              12.32
Source: UBPRs for First Coweta.

Federal banking regulatory agencies issued guidance in December 2006, entitled,
Concentrations in Commercial Real Estate Lending, Sound Risk Management Practices
(Joint Guidance), to reinforce existing regulations and guidelines for real estate lending
and safety and soundness.6 The Joint Guidance focuses on those CRE loans for which
cash flow from real estate is the primary source of repayment (i.e., ADC lending). The
Joint Guidance states that the agencies had observed an increasing trend in the number of
institutions with concentrations in CRE loans and noted that rising CRE concentrations

4
  The increase in risk exposure from ADC loans in 2008 was due primarily to the decline in the bank’s
capital level.
5
  Institutions are assigned to 1 of 15 peer groups based on asset size, number of branches, and whether the
institution is located in a metropolitan or non-metropolitan area. De novo institutions are compared to other
banks that opened in the same period for 5 years. Accordingly, First Coweta’s peer group included
institutions with assets less than $750 million established in 2004. Subsequent to that period, First Coweta’s
peer group included institutions with assets between $100 million and $300 million in a metropolitan area
with three or more full-service offices.
6
  The guidance was issued jointly by the Office of the Comptroller of the Currency, the Board of Governors
of the Federal Reserve System, and the FDIC (collectively referred to as the agencies in the guidance).


                                                      3
could expose institutions to unanticipated earnings and capital volatility in the event of
adverse changes in the general CRE market. Indeed, as noted in First Coweta’s August
2007 examination report, the softening of the 1-4 family residential real estate market in
2007 resulted in an upward trend in classified credits, and First Coweta’s ADC
concentrations left the bank vulnerable to deteriorating economic conditions in 2008 and
2009.

Risk Management Practices

An institution’s Board is responsible for establishing appropriate risk limits, monitoring
exposure, and evaluating the effectiveness of the institution’s efforts to manage and
control risk. The Joint Guidance reiterates that concentrations in CRE lending, coupled
with weak loan underwriting and depressed CRE markets, contributed to significant credit
losses in the past. Earlier guidance on ADC lending7 emphasized that management’s
ability to identify, measure, monitor, and control portfolio risk through effective
underwriting policies, systems, and internal controls was crucial to a sound ADC lending
program. First Coweta’s Board did not ensure that management established effective risk
management practices sufficient to limit the bank’s exposure to ADC concentrations,
allowing the bank to grow significantly without risk limits and monitoring practices
commensurate with the increased risk associated with those concentrations.

Loan Underwriting and Credit Administration

According to the FDIC’s Risk Management Manual of Examination Policies, the degree of
risk in a real estate loan depends primarily on the loan amount in relation to collateral
value, the interest rate, and most importantly, the borrower’s ability to repay in an orderly
fashion. Placing undue reliance upon a property’s appraised value in lieu of an adequate
initial assessment of a debtor’s repayment ability is a potentially dangerous mistake. In
that regard, First Coweta did not implement sound loan underwriting and credit
administration practices, as illustrated by the following weaknesses reported by
examiners:

•   Management did not conduct a proper review and analysis of appraisals at loan
    inception. Further, management did not satisfactorily review appraisals as economic
    conditions changed, nor adjust them for current conditions, such as a decline in sales
    prices and an increase in absorption period.

•   Management did not perform appropriate due diligence when purchasing loan
    participations. According to examiners, the level of analysis for participations should
    be as stringent as that done for loans originated by the bank’s loan officers. First
    Coweta purchased a significant volume of loans from a financial services firm in
    Georgia. Loans purchased from this firm totaled approximately 8 percent of total
    loans and 97 percent of Tier 1 Capital. The bank failed, however, to perform any


7
 FIL-110-98, entitled, Internal and Regulatory Guidelines for Managing Risks Associated with Acquisition,
Development, and Construction Lending, dated October 8, 1998.


                                                    4
    independent review of these loans and relied upon the firm’s underwriting and credit
    administration, which was found to be poor.

•   Preparation of cash flow and debt servicing analysis was not consistently performed.
    Specifically, global cash flow analyses, which involve analyzing borrowers’ complete
    financial resources and obligations, were not always performed and documented.
    Credit memorandums8 did not focus on the borrower’s and/or company’s financial
    status but on getting credit approval. FIL-22-2008, entitled, Managing Commercial
    Real Estate Concentrations in a Challenging Environment, issued March 17, 2008,
    provides key risk management processes for institutions with CRE concentrations, one
    of which is to maintain updated financial and analytical information for borrowers, and
    states that global financial analyses of obligors should be emphasized.

•   There were numerous documentation exceptions related to credit administration, such
    as the absence of current financial statements, tax returns, and credit memorandums.
    In general, First Coweta failed to inspect and document the current status of ADC
    loans on a timely basis.

Further, although the bank monitored concentrations by type and location, examiners
recommended in 2008 that a portfolio-level stress test or sensitivity analysis to quantify
the impact of the changed economic conditions be performed.

An external loan review of the bank conducted in 2008 identified underwriting and credit
administration weaknesses similar to those identified by examiners and attributed past
credit underwriting weaknesses to the fact that asset growth took priority over asset
quality. Additionally, the 2008 external loan review report stated that First Coweta’s
inadequate evaluation of borrower repayment capability was disguised with inflating real
estate values and turnover in the real estate sales market. However, when the real estate
market slowed, the borrower’s ability to repay became challenged because the borrower’s
liquidity and outside income sources were not capable of supporting stagnant speculative
projects. The external loan review also identified evidence of apparent loan fraud
concerning one loan relationship.

The loan officers responsible for the majority of the poor quality loans were no longer
working at the bank by the end of 2008 and the bank hired a new chief lending officer.
Notwithstanding those changes in bank personnel, the December 2008 examination report
stated that Board and management supervision was deficient and a significant contributor
to the bank’s poor financial condition. Further, the report stated that the poor condition of
the bank preempted substantial improvement and, despite positive actions taken by the
new management team, it could not effectively correct the bank’s problems.




8
  In general, a credit memorandum describes the terms and conditions of the loan request and should serve as
a basis for the loan approval.


                                                     5
Loan Policy

The DBF’s 2006 examination report recommended that the bank’s loan policy include
credit memorandum guidelines. During the DBF’s 2008 examination, as First Coweta
was revising its loan policy, examiners noted additional areas that the policy needed to
address, including:

•   providing detailed definitions of the loan grades used by the bank;
•   referencing the Allowance for Loan and Lease Losses (ALLL) methodology, including
    how it will be assessed, how often it will be calculated, and the frequency of the Board
    review; and
•   outlining a process for external loan reviews.

Contraventions and Violations of Regulatory Requirements

First Coweta was also cited for being in contravention to, or in violation of, regulatory
requirements—an indication of weak risk management practices. Specifically, the 2005
examination report identified two loans and the 2007 examination report identified seven
loans that exceeded supervisory loan-to-value (LTV) limits that were not reported to the
Board in contravention of Appendix A (Interagency Guidelines for Real Estate Lending
Policies) to Part 365, Real Estate Lending Standards, of the FDIC Rules and Regulations.
Appendix A states that institutions should establish their own internal LTV limits for real
estate loans which should not exceed established supervisory limits. The guidelines also
state, in part, that it may be appropriate in individual cases to originate or purchase loans
with LTV in excess of the supervisory limits but that such loans should be identified in the
institution’s records and the aggregate amount reported to the Board at least quarterly.

Further, Appendix A stipulates that the aggregate amount of all loans in excess of the
supervisory LTV limits should not exceed 100 percent of total capital and that all loans for
commercial, agricultural, multi-family, or other non-1-4 family residential properties
should not exceed 30 percent of total capital. In contravention of the guidelines, as of
September 30, 2008, First Coweta’s total loans in excess of supervisory limits equaled
almost 101 percent of total capital and total non-1-to-4 family loans in excess of
supervisory limits represented approximately 88 percent of total capital. In addition, the
2008 examination report cited First Coweta for being in contravention of the Interagency
Policy Statement on the Allowance for Loan and Lease Losses, as discussed in the next
section of this report.

Finally, in the 2008 examination report, First Coweta was also cited for three apparent
violations of Part 323 of FDIC Rules and Regulations (Appraisals) related to
(1) independence requirements of the appraiser, (2) the sufficiency of the support for one
appraised value, and (3) the failure to include discounted cash flows in the appraisal of a
commercial property.




                                              6
Allowance for Loan and Lease Losses

According to guidance related to the Interagency Policy Statement on the Allowance for
Loan and Lease Losses, the ALLL represents one of the most significant estimates in an
institution’s financial statements and regulatory reports. As a result, each institution has a
responsibility for developing, maintaining, and documenting a comprehensive, systematic,
and consistently applied process for determining the amounts of the ALLL. DBF’s
practice is to expect institutions in the de novo period to maintain an allowance of at least
1 percent of total loans outstanding and First Coweta did so using traditional allocation
factors for problem loans. According to DBF examination guidance, the standard
allowance is viewed as a regulatory floor and institutions are expected to develop a
satisfactory ALLL methodology compliant with accounting standards9 for the long-term
needs of the bank. Accordingly, in order to comply with accounting standards, First
Coweta was required by December 31, 2007 to maintain the ALLL at a level appropriate
to cover estimated credit losses on individually evaluated loans deemed impaired, as well
as estimated credit losses inherent in the remainder of the portfolio. The 2007
examination report outlined steps First Coweta needed to comply with the accounting
standards and emphasized to management the importance of accurate internal loan ratings.
The 2008 examination report, however, cited First Coweta for being in contravention of
the Interagency Policy Statement on the Allowance for Loan and Lease Losses because of
the bank’s noncompliance with the accounting standards. Subsequent to the 2008
examination, management provided examiners with an amended ALLL methodology that
was determined to appropriately reflect the risks in the loan portfolio and address the
contravention cited in the 2008 examination report.

Reliance on Non-Core Funding

First Coweta used brokered deposits, Internet certificates of deposit, and Federal Home
Loan Bank (FHLB) funds to supplement loan growth. As shown in the figure on the next
page, First Coweta’s net non-core funding dependence ratio10 was consistently higher than
its peer group from 2005 through 2008 but trended lower after December 2007.
Generally, the lower the ratio, the less risk exposure there is for the bank, whereas higher
ratios reflect a reliance on funding sources that may not be available in times of financial
stress or adverse changes in market conditions. Further, First Coweta’s net non-core ratios
consistently exceeded the bank’s policy parameters. The 2008 examination also noted that
First Coweta needed to develop a better tool to monitor its liquidity position and more
accurately forecast funding needs and recommended that management evaluate its
liquidity action plan.




9
  Statement of Financial Accounting Standards (FAS) No. 5, Accounting for Contingencies and
FAS No. 114, Accounting by Creditors for Impairment of a Loan.
10
   The net non-core funding dependence ratio is defined as non-core liabilities less short-term investments
divided by long-term assets. Non-core liabilities include time deposits of $100,000 or more, brokered
deposits, federal funds purchased, and other borrowed money.


                                                      7
Figure: First Coweta’s Net Non-Core Funding Dependence Ratio



         60%

         50%                                              47.65%       39.37%    40.69%
                              35.77%
         40%
                 26.20%
         30%                                                        37.06%
         20%                                          28.50%
                                   22.46%                                        23.12%
         10%
                   10.95%
          0%
                    Dec-05        Dec-06           Dec-07           Dec-08      Jun-09

                                           First Coweta        Peer Group

Source: UPBRs for First Coweta.




The FDIC’s Supervision of First Coweta
Our review focused on FDIC and DBF supervisory oversight of First Coweta between
2005 and 2009. The first three examinations, conducted during First Coweta’s de novo
period, identified ADC concentrations and the need for the bank to enhance various
underwriting and credit administration practices. During its de novo period, examiners
generally concluded that First Coweta’s overall financial condition was sound and
management’s performance and oversight was satisfactory. The FDIC’s offsite
monitoring program was used to monitor the bank’s condition between the 2007 and 2008
examinations and prompted a joint visitation in late 2008 and the acceleration of the
DBF’s on-site examination. In 2008, examiners found the overall condition of the bank
had significantly deteriorated because of a slowing economy and poor Board and
management oversight. Formal supervisory action was taken in 2009; however, by the
time that action became effective, the financial condition of the bank had become critically
deficient.

Although the FDIC and the DBF closely monitored First Coweta, in retrospect, it may
have been prudent for the FDIC to downgrade the management component and/or pursue
supervisory action in 2007 considering the following risks that were apparent at the
institution:




                                                  8
•    significant growth during the de novo period;
•    lack of adherence to business plan projections;
•    high concentrations of ADC loans;
•    noted weaknesses in underwriting and credit administration practices, including
     contraventions and violations of regulatory guidance; and
•    reliance on non-core funding.

Such an approach may have (1) been more effective in bringing about necessary risk
mitigation by requiring more formal Board and management commitments to corrective
actions and (2) resulted in increased supervisory oversight at a critical point in time. We
recognize that rating determinations are a matter of judgment. Further, while it was
possible for examiners to downgrade the management component, it may have been
difficult for them to support a lower rating in 2007 based on weak practices because the
bank’s earnings and capital were considered to be satisfactory at that time.

In recognition of the risk factors present in First Coweta and in similarly troubled or failed
institutions, the FDIC established broad supervisory expectations in 2006 and again in
2008 with regard to managing risk associated with CRE and ADC concentrations. In 2008
and 2009, the FDIC issued guidance related to liquidity management and use of volatile or
special funding sources by financial institutions that are in a weakened condition,
respectively. Additionally, in 2009, the FDIC extended the de novo period in recognition
that unseasoned institutions may warrant stronger supervisory attention. The FDIC also
recently established procedures to better communicate and follow up on risks and
deficiencies identified during examinations.

Supervisory History

Between 2005 and 2009, the FDIC and the DBF conducted five on-site examinations of
First Coweta as required11 and monitored First Coweta’s condition using various offsite
monitoring tools. The FDIC conducted a visitation in January 200512 and a joint visitation
was completed in 2008. Table 3 summarizes First Coweta’s supervisory history from
2005 to 2008, including the supervisory actions taken.




11
   Section 337.12 of the FDIC Rules and Regulations, which implements section 10(d) of the FDI Act,
requires annual full-scope, on-site examinations of every state nonmember bank at least once every
12-month period and allows for 18-month intervals for certain small institutions (total assets of less than
$500 million) if certain conditions are satisfied. After its de novo period ended, First Coweta met the
conditions for the 18-month examination cycle.
12
   In accordance with the FDIC’s Risk Management Manual of Examination Procedures, a limited-scope
examination (i.e., visitation) was conducted within the first 6 months of operation.


                                                       9
Table 3: Examinations and Visitations of First Coweta, 2005 to 2008
                                                             Supervisory
       Start Date           As of Date        Agency           Rating*            Supervisory Action
        01/14/05             09/30/04          State           112323/2                  N/A
         1/18/05               N/A             FDIC              N/A                     N/A
        Visitation
        07/19/05             03/31/05          FDIC             112222/2                    N/A
        08/28/06             06/30/06          State            122222/2                    N/A
        08/13/07             06/30/07          FDIC             232222/2                    N/A
        12/01/08             09/30/08        FDIC/State         454543/4       Visitation focused on largest
     Joint Visitation                                                          ADC relationships.
        12/01/08             09/30/08           State           554554/5       Issued Cease and Desist
                                                                               (C&D) order.
 Source: Reports of Examination (ROE) and Joint Visitation Reports for First Coweta.
*Financial institution regulators and examiners use the Uniform Financial Institutions Rating System
(UFIRS) to evaluate a bank’s performance in six components represented by the CAMELS acronym:
Capital adequacy, Asset quality, Management practices, Earnings performance, Liquidity position, and
Sensitivity to market risk. Each component, and an overall composite score, is assigned a rating of 1
through 5, with 1 having the least regulatory concern and 5 having the greatest concern.

First Coweta consistently received composite “2” CAMELS ratings in its de novo period.
Although the bank’s de novo status ended July 12, 2007, Maximum Efficiency, Risk-
focused, Institution Targeted (MERIT)13 examination procedures were not used in the
2007 examination. Following the August 2007 examination, the bank met the conditions
that allow for an 18-month examination cycle. Consequently, the next examination was
scheduled to commence in the first quarter of 2009.

First Coweta was flagged for offsite review in September 30, 2007 and each subsequent
quarter through September 30, 2008 based on bank-filed Call Report data. As part of its
offsite monitoring process, the FDIC contacted the DBF and institution management to
coordinate the supervisory strategy and gain an understanding of steps being taken by
bank management to address recommendations made during the 2007 examination. The
first quarter 2008 offsite review noted an increased volume of nonperforming loans,
declining earnings, and an overall deterioration in First Coweta’s financial condition.
These findings prompted the joint visitation conducted in December 2008 and the DBF to
accelerate its on-site examination by 3 months. Table 4 summarizes the results of the
FDIC’s offsite monitoring of First Coweta.




13
  In 2002, DSC implemented MERIT guidelines to assist examiners in risk-focusing examination
procedures in institutions with lower risk profiles. Under this program, the loan penetration ratio range was
guided by the asset quality rating at the last examination. In March 2008, DSC eliminated MERIT
examination procedures.


                                                     10
Table 4: First Coweta’s Offsite Monitoring, September 2007 to September 2008
                     Offsite
                    Review
 Call Report      Completion
     Date             Date          Level of Risk        Risk Trend              Action Taken
09/30/2007       01/08/2008           Medium                Stable    Contacted bank management to
                                                                      discuss actions taken in response to
                                                                      examination report.
12/31/2007       04/01/2008            Medium              Stable     Continued monitoring.
03/31/2008       06/30/2008            Medium            Increasing   Continued to closely monitor.
06/30/2008       09/30/2008            Medium            Increasing   Contacted bank to discuss liquidity.
                                                                      Coordinated with the DBF and
                                                                      scheduled visitation.
09/30/2008       01/05/2009              High            Increasing   Joint visitation.
Source: DSC’s Virtual Supervisory Information on the Net (ViSION).

In 2008, examiners found that the overall condition of the bank had deteriorated
significantly and assigned it a composite “4” CAMELS rating. The visitation report was
transmitted to First Coweta on January 26, 2009, indicating that a C&D would be pursued.
Among other things, the C&D, effective March 19, 2009, required the bank to:

    •   increase Board participation in the affairs of the bank;
    •   retain qualified management;
    •   develop a capital plan and adopt a plan to achieve and maintain its Tier 1 Capital at
        or above 8 percent of the bank’s total assets and maintain minimum risk-based
        capital requirements for a Well Capitalized bank;
    •   charge off losses and 50 percent of doubtful loans;
    •   reduce concentrations of credit;
    •   reduce classified assets; and
    •   review liquidity and funds management and develop or revise, adopt, and
        implement a written liquidity contingency plan.

Despite efforts by the bank to address these issues, the condition of the bank continued to
deteriorate.

Supervisory Concerns and Response Related to ADC Concentrations and Risk
Management Practices

Each of the examination reports from 2005 through 2008 identified the bank’s ADC
concentrations and made recommendations to enhance monitoring of the concentrations as
well as underwriting and credit administration practices. Further, First Coweta’s growth
exceeded business plan projections. For example, total assets in 2007 were approximately
85 percent higher than projections ($148 million versus $80 million). FDIC officials
stated that de novo institutions often exceeded business plan projections but this was not
considered a concern or a material deviation that required supervisory approval at the




                                                    11
time.14 DSC regional management indicated that growth of this magnitude would now be
considered a material change.

As discussed earlier in the report, First Coweta’s ADC concentrations consistently
exceeded levels described in the 2006 Joint Guidance that may be identified for further
supervisory analysis. In that regard, examiners made recommendations each year to
enhance aspects of First Coweta’s credit underwriting and credit administration practices.
While asset quality and management were generally considered to be satisfactory in 2005
and 2006, the 2007 examination report found asset quality to be less than satisfactory due
to the sharp increase in adverse classifications and weak monitoring practices.
Specifically, credit administration deficiencies were found in approximately 15 percent of
loans reviewed. Further, as stated earlier in this report, the softening of the 1-4 family
residential real estate market had a negative effect on some of the classified assets. In
addition, the 2007 examination report stated that management had not been proactive in
immediately identifying problem credits, as evidenced by the increased level of adverse
assets.

Despite the identified weaknesses, examiners found the overall performance of senior
management and the Board to be satisfactory and rated the management component as a
“2”. A “2” rating indicates satisfactory management and board performance and risk
management practices relative to the institution’s size, complexity, and risk profile. Minor
weaknesses may exist, but are not material to the safety and soundness of the institution
and are being addressed. In retrospect, considering the institution’s de novo status,
significant ADC concentrations (424 percent of Tier 1 Capital as of June 2007),
underwriting and credit administration weaknesses, and policy contravention citations, it
may have been prudent for the FDIC to downgrade the management component to a “3”
rating and/or pursue supervisory action in 2007. A “3” rating indicates that management
and board performance need improvement or risk management practices are less than
satisfactory given the nature of the institution’s activities.

We recognize rating determinations are a matter of judgment. Further, while it was
possible for examiners to downgrade the management component, it may have been
difficult for them to support a “3” rating in 2007 based on weak practices because the
bank’s earnings and capital were considered to be satisfactory at that time. Going
forward, however, downgrading the management component rating or taking supervisory
action when there are weak risk management practices and risks, such as those at First
Coweta, may better ensure that the Board and management are actively engaged in
mitigating the risks.

Although a supervisory action was not taken in connection with the 2007 examination, the
FDIC did perform offsite reviews to monitor actions taken by First Coweta to address the
2007 examination recommendations and improve its financial condition. Despite these
efforts, the December 2008 joint visitation noted that management had not kept the Board

14
  In accordance with requirements in place at the time, FDIC and DBF officials reviewed and approved
business plan changes related to First Coweta’s use of Internet deposits and ability to perform remote
deposit capture.


                                                    12
properly informed of the deteriorating conditions within the bank and the Board had not
provided strong oversight of the lending function. In short, the Board and management
failed to react to changing market conditions or curtail risks in the bank’s ADC portfolio
in a timely manner. Adversely classified loans at the visitation totaled $27.2 million
classified as substandard and $1.9 million classified as loss, which equaled 201 percent of
Tier 1 Capital and the ALLL. The depth and breadth of weaknesses noted in the
visitations and concurrent DBF examination warranted the issuance of the March 2009
C&D discussed previously.

On January 26, 2010, the FDIC issued guidance that defines a standard approach for
communicating matters requiring bank Board attention (e.g., examiner concerns and
recommendations) in examination reports. The guidance also states that examination staff
should request a response from the institution regarding the action that it will take to
mitigate the risks identified during the examination and correct noted deficiencies. This
approach provides examiners with another tool to hold the Board and management
accountable for improved performance and should also facilitate and better ensure
effective supervisory follow-up.

Supervisory Concerns and Response Related to ALLL

Examiner concerns related to First Coweta’s ALLL methodology and level increased with
the deterioration of the loan portfolio. According to the Interagency Policy Statement on
the Allowance for Loan and Lease Losses, examiners should assess the credit quality of an
institution’s portfolio, the appropriateness of its ALLL methodology and documentation,
and the appropriateness of the reported ALLL in the institution’s regulatory reports. The
2005 examination report noted that the ALLL was adequate and that management should
continue to monitor the reserve and make adjustments relative to loan growth and
identified risk. The 2006 examination report noted that an additional provision expense
was needed because of an adversely classified credit and to bring the ALLL to the level
required by the bank policy. The 2007 examination report found that the ALLL
methodology needed improvement. Moreover, the 2008 joint visitation and 2008 DBF
examination indicated First Coweta’s ALLL methodology did not comply with accounting
standards and its ALLL reserve was inadequately funded and required an additional
provision. Table 5 illustrates the significant growth in adversely classified assets as
determined by the institution. Table 5 also illustrates the increase in ALLL examiners
identified during the 2008 visitation/examination.




                                            13
Table 5: First Coweta’s Adversely Classified Assets and ALLL, 2005 to 2008
                                   (Dollars in Thousands)

                  Examiner Adversely Classified Asset Amounts                   ALLL Amounts
                                                                              ALLL       Increase in
                                                              Total         Computed        ALLL
                                                            Adversely        by First    Computed
 Examination                                                Classified       Coweta          by
    Date          Substandard        Doubtful     Loss        Items           Bank       Examiners
     7/19/05                  $0            $0        $0            $0           $340             $0
     8/28/06                  $0        $1,201        $0        $1,201            $919            $0
     8/13/07              $8,767            $0       $39        $8,806          $1,463            $0
    12/01/08             $43,437            $0    $2,307       $45,744          $3,197       $1,092*
Source: ROEs for First Coweta.
*Note: ALLL data for the 12/01/08 examination was based on 12/31/08 data.

Supervisory Concerns and Response Related to Non-Core Funding

During 2006, examiners noted that the bank’s non-core dependency levels exceeded the
bank’s policy limits and recommended that the Board prudently consider the level of
acceptable dependency on non-core funding and take actions to reduce the ratio. The
2007 examination report concluded that management provided adequate monitoring and
control of the bank’s liquidity, but that liquidity levels were tight due to asset growth and a
competitive deposit market. The report recommended that management continue to
closely monitor the bank’s liquidity position. During the third quarter of 2008, liquidity
levels were reported to be unsatisfactory and management was asked to submit weekly
liquidity monitoring reports to regulators. As of September 30, 2008, brokered deposits
accounted for 27 percent of total deposits. The Board approved a Liquidity Action Plan
on November 25, 2008 to assist management in managing and monitoring liquidity levels.
The 2008 visitation report also noted that management was working to eliminate the use
of brokered deposits.

FDIC’s Rules and Regulations Part 337, Unsafe and Unsound Banking Practices, states
that any Well Capitalized insured depository institution may solicit and accept, renew, or
roll over any brokered deposit without restriction. However, Adequately Capitalized
institutions must receive a waiver from the FDIC before they can accept, renew, or roll
over any brokered deposit. First Coweta fell below a Well Capitalized position at the end
of 2008 and was unable to recapitalize the bank. Further, the C&D issued in 2009
prohibited the bank from accepting, renewing, or rolling over brokered deposits without
obtaining a waiver from the FDIC. After the issuance of the C&D, First Coweta did not
request a waiver and made no further purchases of brokered deposits.

Implementation of PCA

The purpose of PCA is to resolve problems of insured depository institutions at the least
possible long-term cost to the DIF. PCA establishes a system of restrictions and
mandatory and discretionary supervisory actions that are to be triggered depending on an
institution’s capital levels. Part 325, Capital Maintenance, of the FDIC’s Rules and


                                                   14
Regulations implements PCA requirements by establishing a framework for taking prompt
corrective action against insured state-charted nonmember banks that are not Adequately
Capitalized. In addition to including provisions in the C&D on minimum capital
requirements, as discussed earlier in the report, the FDIC followed PCA guidance and
appropriately notified the bank of its capital position and corresponding requirements, as
follows:

   •   On February 9, 2009, the FDIC notified First Coweta that it was Adequately
       Capitalized, based on the December 31, 2008 Call Report capital ratios.
   •   On May 11, 2009, the FDIC notified First Coweta that it was Significantly
       Undercapitalized and was required to submit a capital restoration plan. First
       Coweta submitted a contingency capital plan on April 24, 2009 in response to the
       C&D.
   •   On July 20, 2009, the FDIC notified First Coweta that it was Critically
       Undercapitalized.

PCA’s focus is on capital, which can be a lagging indicator of an institution’s financial
health. Although the FDIC followed PCA guidance, by the time First Coweta’s capital
levels fell below the required thresholds necessary to implement PCA, the bank’s
condition had deteriorated to the point at which the institution could not raise additional
capital. First Coweta had submitted an application for the Troubled Asset Relief Program
(TARP) on November 14, 2008 for funding of $4.2 million, however, subsequently
withdrew its application on December 8, 2008. The bank was unsuccessful in raising
capital from its directors and marketing the bank to external investors and was closed on
August 21, 2009.


Corporation Comments
After we issued our draft report, management provided additional information for our
consideration, and we revised our report to reflect this information, as appropriate. On
March 5, 2010, the Director, DSC, provided a written response to the draft report. That
response is provided in its entirety as Appendix 4 of this report. DSC reiterated the OIG’s
conclusions regarding the causes of First Coweta’s failure. With regard to our assessment
of the FDIC’s supervision of First Coweta, DSC cited supervisory action taken in 2007
and 2008, discussed in our report, to address the bank’s heightened risk profile and
deteriorating financial condition due to its high concentrations in ADC lending. Further,
DSC’s response recognizes that strong supervisory attention is necessary for institutions,
like First Coweta, with high ADC/CRE concentrations and volatile funding sources and,
as also discussed in our report, has issued updated guidance reminding examiners to take
appropriate action when those risks are imprudently managed.




                                            15
                                                                               Appendix 1

                    Objectives, Scope, and Methodology

Objectives

We performed this audit in accordance with section 38(k) of the FDI Act, which
provides, in general, that if a deposit insurance fund incurs a material loss with respect to
an insured depository institution, the Inspector General of the appropriate federal banking
agency shall prepare a report to that agency, reviewing the agency’s supervision of the
institution. The FDI Act requires that the report be completed within 6 months after it
becomes apparent that a material loss has been incurred.

The objectives of this material loss review were to (1) determine the causes of First
Coweta’s failure and the resulting material loss to the DIF and (2) evaluate the FDIC’s
supervision of First Coweta, including the FDIC’s implementation of the PCA provisions
of section 38 of the FDI Act.

We conducted the audit from October 2009 to March 2010 in accordance with generally
accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.

Scope and Methodology

To achieve the audit objectives, we performed the following procedures and techniques:

   •   Analyzed examination reports prepared by the FDIC and the DBF from 2005 to
       2008.

   •   Analyzed available examination work papers prepared by the FDIC from 2007 to
       2008.

   •   Reviewed the following:

       - Bank data contained in UBPRs and Call Reports.
       - Correspondence maintained at DSC’s Atlanta Regional and Atlanta Field
         Offices.
       - Reports prepared by the Division of Resolutions and Receiverships (DRR)
         and First Coweta records maintained by DRR.
       - DSC’s ViSION Modules, including Supervisory Tracking & Reporting.
       - Reports from the bank’s internal auditors as of October 2006 and June 2007
         and external auditors for the years ended 2006 and 2008.
       - Pertinent DSC policies and procedures.




                                             16
                                                                            Appendix 1

                   Objectives, Scope, and Methodology

   •   Interviewed the following FDIC officials:

       - DSC regional management in Atlanta, Georgia.
       - DSC examiners in the Atlanta Field Office.

   •   Interviewed DBF officials from Atlanta, Georgia, to discuss their perspective of
       the institution, its examinations, and other activities regarding the DBF’s
       supervision of the bank.

We performed our audit field work at the OIG offices in Arlington, Virginia.


Internal Control, Reliance on Computer-processed Information,
Performance Measurement, and Compliance with Laws and Regulations

Consistent with our audit objectives, we did not assess DSC’s overall internal control or
management control structure. We relied on information in DSC’s systems, reports,
ROEs, and interviews of DSC and DBF examiners to obtain an understanding of First
Coweta’s management controls pertaining to the causes of failure and material loss as
discussed in the body of this report. Although we obtained information from various
FDIC systems, we determined that the controls pertaining to these systems were not
significant to the audit objectives and, therefore, did not evaluate the effectiveness of
information system controls. We relied on information from various sources, including
ROEs, correspondence files, and testimonial evidence, to corroborate data obtained from
systems that were used to support our audit conclusions.

The Government Performance and Results Act of 1993 (the Results Act) directs
Executive Branch agencies to develop a customer-focused strategic plan, align agency
programs and activities with concrete missions and goals, and prepare and report on
annual performance plans. For this material loss review, we did not assess the strengths
and weaknesses of DSC’s annual performance plan in meeting the requirements of the
Results Act because such an assessment was not part of the audit objectives. DSC’s
compliance with the Results Act is reviewed in OIG program audits of DSC operations.

Regarding compliance with laws and regulations, we performed tests to determine
whether the FDIC had complied with the provisions of PCA and limited tests to
determine compliance with certain aspects of the FDI Act. The results of our tests were
discussed where appropriate in the report. Additionally, we assessed the risk of fraud and
abuse related to our objectives in the course of evaluating audit evidence.




                                            17
                                                                                  Appendix 2

                               Glossary of Terms

Term                Definition
Adversely           Assets subject to criticism and/or comment in an examination report.
Classified Assets   Adversely classified assets are allocated on the basis of risk (lowest to
                    highest) into three categories: Substandard, Doubtful, and Loss.
Allowance for       Federally insured depository institutions must maintain an ALLL that is
Loan and Lease      adequate to absorb the estimated loan losses associated with the loan and
Losses (ALLL)       lease portfolio (including all binding commitments to lend). To the
                    extent not provided for in a separate liability account, the ALLL should
                    also be sufficient to absorb estimated loan losses associated with off-
                    balance sheet loan instruments such as standby letters of credit.
Call Report         The report filed by a bank pursuant to 12 United States Code (U.S.C.)
                    1817(a)(1), which requires each insured State nonmember bank and each
                    foreign bank having an insured branch which is not a Federal branch to
                    make to the Corporation reports of condition in a form that shall contain
                    such information as the Board of Directors may require. These reports
                    are used to calculate deposit insurance assessments and monitor the
                    condition, performance, and risk profile of individual banks and the
                    banking industry.

Cease and Desist    A C&D is a formal enforcement action issued by a financial institution
Order (C&D)         regulator to a bank or affiliated party to stop an unsafe or unsound
                    practice or a violation of laws and regulations. A C&D may be
                    terminated when the bank’s condition has significantly improved and the
                    action is no longer needed or the bank has materially complied with its
                    terms.
Concentration       A concentration is a significantly large volume of economically related
                    assets that an institution has advanced or committed to a certain industry,
                    person, entity, or affiliated group. These assets may, in the aggregate,
                    present a substantial risk to the safety and soundness of the institution.

De novo Bank        Prior to the issuance of FIL-50-2009 on August 28, 2009, and for the
                    purposes of FDIC-supervised institutions, this term referred to an
                    institution within its first 3 years of operation. FIL-50-2009 changed the
                    de novo period for newly chartered FDIC-supervised institutions from
                    3 years to 7 years. Under the new de novo period, institutions must
                    undergo a limited-scope examination within the first 6 months of
                    operation, and a full-scope examination within the first 12 months of
                    operation. Subsequent to the first examination, and through the 7th year
                    of operation, institutions remain on a 12-month examination cycle.
                    Extended examination intervals (i.e., 18-month intervals) do not apply
                    during the de novo period.




                                             18
                                                                                 Appendix 2

                               Glossary of Terms

Federal Home        The Federal Home Loan Bank System provides liquidity to member
Loan Bank           institutions that hold mortgages in their portfolios and facilitates the
(FHLB)              financing of mortgages by making low-cost loans, called advances, to its
                    members. Advances are available to members with a wide variety of
                    terms to maturity, from overnight to long term, and are collateralized.
                    Advances are designed to prevent any possible loss to FHLBs, which
                    also have a super lien (a lien senior or superior to all current and future
                    liens on a property or asset) when institutions fail. To protect their
                    position, FHLBs have a claim on any of the additional eligible collateral
                    in the failed bank. In addition, the FDIC has a regulation that reaffirms
                    FHLB priority, and FHLBs can demand prepayment of advances when
                    institutions fail.
Loan-to-Value       A ratio for a single loan and property calculated by dividing the total
                    loan amount at origination by the market value of the property securing
                    the credit plus any readily marketable collateral or other acceptable
                    collateral.
Prompt              The purpose of PCA is to resolve the problems of insured depository
Corrective Action   institutions at the least possible long-term cost to the DIF. Part 325,
(PCA)               subpart B, of the FDIC Rules and Regulations, 12 Code of Federal
                    Regulations (C.F.R.), section 325.101, et. seq., implements section 38,
                    Prompt Corrective Action, of the FDI Act, 12 U.S.C. section 1831(o), by
                    establishing a framework for taking prompt supervisory actions against
                    insured nonmember banks that are less than adequately capitalized. The
                    following terms are used to describe capital adequacy: (1) Well
                    Capitalized, (2) Adequately Capitalized, (3) Undercapitalized,
                    (4) Significantly Undercapitalized, and (5) Critically Undercapitalized.




                                            19
                                                                             Appendix 2

                            Glossary of Terms

Tier 1 (Core)    In general, this term is defined in Part 325 of the FDIC Rules and
Capital          Regulations, 12 C.F.R. section 325.2(v), as
                 The sum of:
                 • Common stockholder’s equity (common stock and related
                 surplus, undivided profits, disclosed capital reserves, foreign
                 currency translation adjustments, less net unrealized losses on
                 available-for-sale securities with readily determinable market
                 values);
                 • Non-cumulative perpetual preferred stock; and
                 • Minority interest in consolidated subsidiaries;
                 Minus:
                 • Certain intangible assets;
                 • Identified losses;
                 • Investments in securities subsidiaries subject to section 337.4;
                 and
                 • Deferred tax assets in excess of the limit set forth in section
                 325.5(g).

Troubled Asset   TARP is a program of the United States Department of the Treasury to
Relief Program   purchase assets and equity from financial institutions to strengthen the
(TARP)           financial sector.

Uniform Bank     The UBPR is an individual analysis of financial institution financial data
Performance      and ratios that includes extensive comparisons to peer group
Report (UBPR)    performance. The report is produced by the Federal Financial
                 Institutions Examination Council for the use of banking supervisors,
                 bankers, and the general public and is produced quarterly from data
                 reported in Reports of Condition and Income submitted by banks.




                                         20
                                                                        Appendix 3

                              Acronyms
ADC      Acquisition, Development, and Construction
ALLL     Allowance for Loan and Lease Losses
C&D      Cease and Desist Order
CAMELS   Capital, Asset Quality, Management, Earnings, Liquidity, and
         Sensitivity to Market Risk

CRE      Commercial Real Estate
DBF      Department of Banking and Finance
DIF      Deposit Insurance Fund
DRR      Division of Resolutions and Receiverships
DSC      Division of Supervision and Consumer Protection
FDI      Federal Deposit Insurance
FHLB     Federal Home Loan Bank
FIL      Financial Institution Letter
LTV      Loan-to-Value
MERIT    Maximum Efficiency, Risk-focused, Institution Targeted
OIG      Office of Inspector General
PCA      Prompt Corrective Action
ROE      Report of Examination
TARP     Troubled Asset Relief Program
UBPR     Uniform Bank Performance Report
UFIRS    Uniform Financial Institutions Rating System
ViSION   Virtual Supervisory Information on the Net




                                     21
                                                                                Appendix 4
                                    Corporation Comments




Federal Deposit Insurance Corporation
550 17th Street NW, Washington, D.C. 20429-9990               Division of Supervision and Consumer Protection

                                                                         March 5, 2010
TO:               Stephen Beard
                  Assistant Inspector General for Material Loss Reviews

                  /Signed/
FROM:             Sandra L. Thompson
                  Director

SUBJECT:          Draft Audit Report Entitled, Material Loss Review of First Coweta Bank,
                  Newnan, Georgia (Assignment No. 2009-071)

Pursuant to Section 38(k) of the Federal Deposit Insurance Act, the Federal Deposit Insurance
Corporation’s Office of Inspector General (OIG) conducted a material loss review of First
Coweta Bank, Newnan, Georgia (FCB) which failed on August 21, 2009. This memorandum is
the response of the Division of Supervision and Consumer Protection (DSC) to the OIG’s Draft
Report (Report) received on February 24, 2010.

The Report concludes FCB failed due to the Board and management’s aggressive pursuit of loan
growth primarily funded with brokered deposits and large time deposits. FCB’s management
decision to concentrate the loan portfolio in acquisition, development, and construction (ADC)
loans, its aggressive growth in residential ADC lending and participations, and its reliance on
brokered and large deposits were the principal factors leading to FCB’s deteriorating financial
condition and failure. FCB’s overall weak loan administration and the deterioration of the
Atlanta metropolitan real estate market resulted in increased delinquencies and non-performing
assets. FCB was unable to raise sufficient capital to absorb the loan losses, support its
operations, and maintain liquidity.

As part of DSC’s supervisory program from 2005 through August 2009, the FDIC and the
Georgia Department of Banking and Finance (GDBF) jointly and separately conducted five full-
scope examinations and two visitations. The FDIC also conducted offsite reviews and other
offsite monitoring activities. At the August 2007 examination, examiners downgraded asset
quality and noted a heightened risk due to high concentrations in ADC lending. FDIC
immediately began offsite monitoring of the steps FCB management took to address
recommendations contained in the 2007 report, including adding staff to address the credit
administration and loan review issues. At the December 2008 GDBF examination and FDIC
joint visitation, examiners found that FCB had further deteriorated to a level that raised
significant regulatory concern and posed considerable risk, resulting in GDBF and FDIC
implementing a formal enforcement action. FCB management was unable to correct the
deficiencies, and FCB ultimately failed.

DSC recognizes that strong supervisory attention is necessary for institutions with high
ADC/commercial real estate concentrations and volatile funding sources, such as FCB, and has
issued updated guidance reminding examiners to take appropriate action when those risks are
imprudently managed.

Thank you for the opportunity to review and comment on the Report.

                                                  22
